<html>
<title> - THE NOMINATION OF LIEUTENANT GENERAL ROBERT L. VAN ANTWERP, JR., TO BE CHIEF OF ENGINEERS AND COMMANDING GENERAL OF THE UNITED STATES ARMY CORPS OF ENGINEERS</title>
<body><pre>[Senate Hearing 110-1094]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1094
 
                 THE NOMINATION OF LIEUTENANT GENERAL 
  ROBERT L. VAN ANTWERP, JR., TO BE CHIEF OF ENGINEERS AND COMMANDING 
          GENERAL OF THE UNITED STATES ARMY CORPS OF ENGINEERS 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

55-926 PDF                       WASHINGTON : 2011

For sale by the Superintendent of Documents, U.S. Government Printing 
Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director























                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 18, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4
Warner, Hon. John W., U.S. Senator from the State of Virginia....     5
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     6
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....    14
Craig, Hon. Larry E., U.S. Senator from the State of Idaho.......    16

                               WITNESSES

Antwerp, Lieutenant General Robert L. Van Jr., To be Chief of 
  Engineers and Commanding General of the United States Army 
  Corps of Engineers.............................................    20
Responses to additional questions from:
    Senator Carper...............................................    20
    Senator Cardin...............................................    22
    Senator Vitter...............................................    23


THE NOMINATION OF LIEUTENANT GENERAL ROBERT L. VAN ANTWERP, JR., TO BE 
  CHIEF OF ENGINEERS AND COMMANDING GENERAL OF THE UNITED STATES ARMY 
                           CORPS OF ENGINEERS

                              ----------                              


                       WEDNESDAY, APRIL 18, 2007


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer (chair 
of the committee) presiding.
    Present: Senators Boxer, Cardin, Craig, Inhofe, Isakson, 
Vitter, Warner, Whitehouse.

         OPENING STATEMENT OF HON. BARBARA BOXER, U.S. 
              SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good afternoon, everybody. Today, the Senate 
Committee on Environment and Public Works meets to consider the 
nomination of Lieutenant General Robert L. Van Antwerp, Jr., to 
be Chief of Engineers and Commanding General of the U.S. Army 
Corps of Engineers.
    General, congratulations on your nomination. I am pleased 
to welcome you to this committee and your wife, who I just had 
the pleasure of meeting. I thank you for offering your service 
again to the people of this country. This committee has broad 
jurisdiction over the infrastructure of America. It is the 
authorizing committee for the Civil Works Program of the 
Nation.
    Last month at our first legislative business meeting of the 
year, this committee, in a bipartisan, unanimous way, reported 
the Water Resources Development Act of 2007 to the floor of the 
Senate. Senators Inhofe, Baucus, Isakson, and I are committed 
to expeditiously moving WRDA on the floor of the Senate, 
through conference, and to the President's desk for signature.
    The position of Chief of Engineers is of utmost importance 
to all of us. In your capacity as Chief, you will oversee the 
feasibility, accountability and environmental acceptability of 
Army Corps civil works projects around the country. We all know 
how important projects of the corps are. Projects under your 
jurisdiction include flood control projects that protect 
communities from catastrophic storms and flooding; navigation 
improvements that keep America's commerce moving; environmental 
protection, preservation and restoration projects for the 
Nation's natural resources, particularly America's once vast 
wetlands.
    In these and many other projects, the corps contributes 
positively to America's way of life. Now, unfortunately, we 
have also seen the impacts of corps projects that don't 
perform. As the world watched in horror and agony at the events 
surrounding Hurricane Katrina, we all learned of the 
consequences of neglecting our water infrastructure needs or 
making mistakes or just not being vigilant enough.
    General, the task to which you have been assigned is an 
immense one. In my home of California, the lives of hundreds of 
thousands of people are at risk from catastrophic flooding in 
the Sacramento area. We cannot afford to wait any longer to get 
needed flood control improvements, nor can we afford to get it 
wrong.
    General, your background and experience give me comfort 
that you are up to this challenge. Let me briefly share this 
background with my colleagues and for the record. Lieutenant 
General Robert L. Van Antwerp currently commands the U.S. Army 
Accessions Command based at Fort Monroe, VA. Prior to this 
current assignment, he served as the Commanding General of the 
U.S. Army Maneuver Support Center and Commandant of the U.S. 
Army Engineer School at Fort Leonard Wood, MO.
    He also served as an engineer officer with the U.S. Army 
Corps of Engineers Los Angeles District during the Northridge 
earthquake of 1994. Given the events of recent years, I am very 
pleased that you have had the on the ground experience with the 
challenges of natural disasters. I can say for everyone, in 
California we have had a lot of problems, but in the Northridge 
situation, it was an amazing response and I want to thank you 
for what you did back then.
    The General also served in the 326th Engineer Battalion, 
101st Airborne Division during Operations Desert Shield and 
Desert Storm.
    So he is a real hero and once again, welcome to the 
committee. I look forward to your testimony.
    Senator Inhofe.

        OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. 
               SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I would like to ask first the progress of your son. How is 
your son doing?
    General Van Antwerp. Thank you very much for asking. He was 
discharged on the 18th of January and is now settled in Ohio 
and has a job and is starting his second career. So we are very 
pleased.
    Senator Inhofe. That is good. That is good. Well, we are 
all concerned. Of course, and I say this to you, Madam 
Chairman, you have dramatically shortened my opening Statement. 
I was going to talk a little bit about him, too, but now that 
we know.
    As some of the other members of the committee may not be 
aware of, Senator Warner and I already had the hearing in the 
Armed Services Committee, and of course there was no opposition 
at that time.
    I have to agree with the Chairman. I think you have an 
ideal background to do this job. I am looking forward to 
working with you in both capacities on both of our committees. 
You will be facing difficult decisions and management 
challenges in the Civil Works mission. As the Chairman said, we 
are trying to get this WRDA bill done. Frankly, I think we are 
going to do it. I think we ought to have it on the floor 
sometime in the first part of May, I can hopefully say.
    In which case, your job is going to be in some ways easier 
and in some ways it is going to be more difficult because there 
will be more activity, but it is activity that needs to take 
place.
    More specifically to my State of Oklahoma, as you well 
know, for the past 4 years the State and Federal agencies have 
devoted a lot of resources and effort to the remediation of the 
Tar Creek problem. In fact, when I became Chairman of this 
committee 4 years ago, that is when we got you guys and the 
Department of Justice and the Department of Interior and the 
Corps of Engineers and everybody in one room together, only to 
find they had not been in that one room together before.
    We are doing very well now. I would certainly hope that you 
would continue in your new capacity in seeing that through to 
its completion. I think that will happen.
    Thank you.
    [The prepared Statement of Senator Inhofe follows:]

       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma

    Thank you Madam Chairman for holding this hearing today. As 
has been noted, Lieutenant General Robert Van Antwerp is 
currently Commander of the U.S. Army Accessions Command. His 
nomination to be Chief of Engineers comes at a very challenging 
time for the Army Corps, but he is certainly well qualified and 
highly regarded. I have no doubt that he will be successful at 
this new post.
    Although General Van's nomination is officially the 
jurisdiction of the Armed Services Committee, I think it is 
important that this committee have a chance to hear from him 
prior to his confirmation. The Armed Services Committee, of 
which I am also a member, held a hearing and approved his 
nomination last month. There we heard from General Van on the 
wide range of issues that are the responsibility of the Chief, 
but it is this committee that has the expertise regarding the 
Civil Works mission of the Corps of Engineers.
    The new Chief will face many difficult decisions and 
management challenges just within the Civil Works mission. He 
will need to oversee the continued rebuilding and improvement 
of the hurricane protection system in South Louisiana, with all 
of the engineering difficulties that presents. He will need to 
continue implementation of the many changes that have begun as 
a result of the hurricanes down there, such as the emphasis on 
integrated water resources management and the use of risk 
assessment tools to guide our decisions and inform the public.
    As the new Chief, General Van would take charge of a vast 
regulatory program that needs to begin providing clarity and 
certainty to the regulated community in the wake of two Supreme 
Court decisions that haven't seemed to clarify much of 
anything.
    The new Chief will need to implement whatever new policy 
provisions are included in the WRDA bill we all hope to have 
enacted as soon as possible. In particular, both House and 
Senate bills include various so-called ``Corps reform'' 
provisions. Whatever the final mix is, General Van as Chief of 
Engineers would be responsible for ensuring that these items 
are incorporated into the corps procedures efficiently and 
effectively.
    Finally, on a note specific to my home state of Oklahoma - 
General Van, over the past four years, state and federal 
agencies have devoted much resources and effort to remediation 
and resident assistance at the Tar Creek Superfund Site in 
northeastern Oklahoma. I want to get your commitment to make 
the work at Tar Creek a top priority and to ensure timely 
cooperation with state agencies that are involved in assisting 
the area residents.
    General Van, upon confirmation you will face many difficult 
tasks, but I have every confidence that you will meet these 
challenges and be a strong leader for the Corps of Engineers.

    General Van Antwerp. Thank you, sir.
    Senator Boxer. Thank you, Senator.
    Senator Cardin.

      OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, U.S. 
               SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you very much, Madam Chair. Again, I 
thank you for having this hearing to give me chance to go over 
some of the priorities of Maryland.
    General, you and I had a chance to talk yesterday. I am 
going to start off with a problem that affects one of our 
smaller municipalities in Maryland, Chesapeake City. It has a 
population of a little over 735 people. Several years ago, the 
Army Corps in deepening the Chesapeake and Delaware Canal, 
removed the water line between the town. The town is divided by 
the C & D canal. Therefore, the ability of having one water 
supply was compromised. They have to have separate facilities 
on both sides of the canal. As I explained to you yesterday, 
the work that you do is so important to the people of Maryland. 
We are looking forward to your leadership at the Army Corps.
    Marylanders depend upon the work of the Army Corps for 
flood control in the western part of our State, to the 
importance of the Chesapeake Bay. The Chesapeake Bay is a 
wonderful natural treasure for the people of Maryland, but it 
has significant environmental risks and is very vulnerable to 
erosion. We need to deal with the erosion problems of the bay.
    It is also a shipping channel. It is a shipping channel for 
126 miles of shipping that lead into the Port of Baltimore. 
There are 70 small navigation projects around the Chesapeake 
Bay and Atlantic Ocean that are in the State of Maryland. We 
need to continuously work on the balance between the 
environment and the commerce.
    I mentioned to you yesterday Poplar Island. I do that 
because we are very proud of what has happened at Poplar 
Island. At one time, Poplar Island was 1,100 acres. It eroded 
down to five acres. What we were able to do through the 
authorization of Congress and the work of the Army Corps is 
develop a dredge site location that was also environmental 
restoration.
    So we had a win-win situation, and it is progressing better 
than any of us had expected at the time. Wildlife is returning. 
The acreage is there. It is a real asset to the bay and a real 
asset to the commerce of our State. It has been a model program 
for our Nation, and actually we have gotten a lot of 
international visitors who come by and see Poplar Island.
    We are in the midst of authorizing, we hope, a second 
location in the mid-Chesapeake Bay, James Island. As I have 
mentioned to you earlier, and I will ask you during the 
questioning, the timeliness of the Chief's report is very 
important to us in getting that project moved forward.
    So I look forward to this hearing, but I particularly look 
forward to your continued service to the people of this 
country. I thank you and your family for your dedicated service 
to our country.
    [The prepared Statement of Senator Cardin follows:]

      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland

    Thank you for holding this hearing today.
    I represent a state which relies heavily upon the Army 
Corps of Engineers' civil works programs.
    Maryland has 31 miles of Atlantic Ocean coastline, which 
are the site of two critical corps projects--a hurricane 
protection project at our premier beach resort community, Ocean 
City, and a mitigation project at Assateague Island National 
Seashore.
    The Chesapeake Bay is America's largest estuary. The corps' 
oyster and habitat restoration, shoreline protection, and 
sediment management programs are integral to our efforts to 
restore the Bay.
    We have a geography and topography which makes the 
Chesapeake Bay particularly susceptible to erosion. This 
erosion contributes millions of cubic yards of sediment 
annually to the bay, adversely affecting water quality and 
clogging navigation channels.
    The Port of Baltimore is one of the largest ports on the 
east coast and a vital engine of economic activity, 
contributing $2 billion to the State's economy and employing 
18,000 Marylander's directly and tens of thousands more 
indirectly.
    There are 126 miles of shipping channels leading to the 
Port of Baltimore. Maryland also has more than 70 small 
navigation projects around the Chesapeake Bay and Atlantic 
Ocean. These navigation projects are critical to commercial and 
recreational fisherman, to local and regional commerce and to 
local economies.
    We rely heavily on the U.S. Army Corps of Engineers for 
flood protection in communities in Western Maryland and for 
water supply.
    In short, the Corps of Engineers has projects and provides 
assistance to virtually every jurisdiction in the State of 
Maryland
    Our efforts in Maryland focus on four areas:

      maintaining the navigational channels serving the Port 
of Baltimore and numerous communities in our state, and finding 
responsible and environmentally sound solutions for disposing 
of the dredged material from these channels,
      restoring the Chesapeake Bay and the rivers and streams 
which flow into the Bay,
      addressing the shoreline erosion problems on Maryland's 
Atlantic Coast , and
      mitigating for previous construction of civil works such 
as the rewatering of the C&O Canal in Cumberland.

    I have talked with met with the nominee and reviewed his 
impressive background. We need a Chief of Engineers that 
understands the importance of the range of issues facing 
Maryland and the nation. I think that Lieutenant General Van 
Antwerp has the potential to bring to the job a strong 
background and a willingness to work with us that will combine 
to make him an excellent chief. I look forward to asking the 
nominee a few questions, and I anticipate working closely with 
him in the years ahead.

    Senator Boxer. Thank you, Senator Cardin.
    Senator Warner.

        OPENING STATEMENT OF HON. JOHN W. WARNER, U.S. 
               SENATOR FROM THE STATE OF VIRGINIA

    Senator Warner. Thank you, Madam Chairman. I have had the 
privilege, as my distinguished colleague said, Senator Inhofe, 
to vigorously question this candidate before the Armed Services 
Committee. We have screened him and put our stamp of approval 
on him.
    I would simply like to exercise a little bit of a 
prerogative to ask one issue about the acceleration of funding. 
I don't want to get into the politics, but if Congress decides 
to accelerate the funding to get started on that new hospital 
to eventually replace a good portion of Walter Reed, are you 
able to give this committee some estimates of the amount of 
advance funding that you would need to get that underway?
    General Van Antwerp. Senator, I would have to take that for 
the record.
    Senator Warner. I would suspect you would.
    General Van Antwerp. That is a really great question and 
important to the country.
    Senator Warner. It is an important question.
    General Van Antwerp. Right.
    Senator Warner. I represented to the Congress that we can 
save some time if we move ahead on that project so that we can 
have a seamless turnover, a closing down under BRAC of Walter 
Reed and the functions at that distinguished institution 
transferred to Bethesda and to this new facility.
    I would appreciate that, General.
    I thank the Chair and the Ranking Member.
    General Van Antwerp.Thank you, sir.
    Senator Boxer. Senator Vitter, an opening Statement.

         OPENING STATEMENT OF HON. DAVID VITTER, U.S. 
              SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Chairman Boxer and Ranking 
Member Inhofe, for having this confirmation hearing. I think it 
is very, very important.
    And General, thank you for being here. I appreciate it.
    I put a technical hold on this nomination some time ago, 
March 15th, not as any negative Statement about anything, but 
simply to ensure that all of us could have an appropriate 
opportunity for full due diligence. I had a personal meeting 
with the General and discussion in my office even before that, 
on March 7th. This hearing, which I urgently requested, and I 
thank the Chair again for agreeing to that request, I think is 
another important step in that very important due diligence. I 
look forward to our continued discussion here.
    Obviously, my background and concern about this position 
and the work of the corps is dominated by the experience of 
Hurricanes Katrina and Rita. So certainly my comments and 
questions are focused on that.
    Just as obviously, that has national import and 
significance as well. The future of the Civil Works Program 
certainly must correct the mistakes of the past that were 
uncovered specifically following Hurricane Katrina. Those 
lessons were unbelievably painful in many ways. The loss of 
1,200 lives brought attention to some of these concerns. But I 
continue to have concerns even as we try to improve coming out 
of that experience. My questions will go to those concerns.
    Two of them I will mention right off. One is that the 
traditional corps process of identifying and refining work is 
just too long and bureaucratic and cumbersome. It simply takes 
way, way too long a period of time for a legitimate corps 
project to be identified and get underway. Unless we correct 
that fundamental problem, there are other problems related to 
that. Maybe we throw too much on your plate and don't focus on 
the real top concerns; asking you to do too much with too 
little. But unless we identify that fundamental problem, there 
are going to be more system failures in the future.
    A second concern is that even in post-Katrina South 
Louisiana, where we have a clear emergency situation and where 
coming out of the hurricanes we have emergency work that has to 
be done in a super-expedited way, that sense of urgency I think 
has been lost. It was there right after the hurricanes, but 
fairly soon after that, in a matter of months, my perception is 
that the bureaucracy, many, many bureaucracies, including the 
corps, has drifted back into business as usual, which doesn't 
reflect the sense of urgency that is required. So a lot of my 
concerns will go to all of these concerns.
    But again, General, thank you for your history of service. 
Thank you for making yourself available again.
    Chairwoman Boxer, thank you for this hearing.
    Senator Boxer. You are very welcome.
    Senator Inhofe has a meeting to go to with the Armed 
Services Committee, so he has asked if he can go first with 
questions.
    Senator Inhofe. I will just do one question, because I do 
have to go down to the Armed Services Committee. I appreciate 
that very much.
    I know Senator Vitter is very much concerned. He is going 
to cover a lot of these things in his questions. But I had just 
one that was called to my attention. I have been there twice 
since this happened, kind of overviewing what is going on. In 
terms of the safe cleanup, it has been the corps' 
responsibility to remove and haul the hurricane waste to 
designated landfills.
    Now, allegations have been made that some unsafe old 
landfills have been reopened--Old Gentilly was one that people 
were talking about--and that new landfills have been created, 
like the Chef Menteur under suspect contracts. There have been 
some articles written that would certainly make me wonder if 
everything is really on the up and up.
    Now, this happened while there are perfectly good 
landfills. I actually saw a couple of those that were down 
that, that could take some of this capacity. Now, I would ask 
you, since it would be premature to ask if you have done 
anything or been down there looking at this, but I would like 
to ask you to, if you have any comments to make about that, go 
ahead and make them. And if you don't, make a commitment to go 
down.
    We get criticized a lot. That is not the State that I 
represent, but certainly my heart goes out to Senator Vitter 
for all the problems that he has. It is our responsibility to 
make sure that funds and resources that are used down there are 
used most efficiently and effectively. So that is one area.
    Are you familiar with any of the accusations that there are 
perfectly good landfills that are not at capacity right now 
that could be used?
    General Van Antwerp. Yes, I believe I probably read the 
same article as you did. I am committed to going down. 
Actually, I am going to go down on Friday. I will make that 
part of our trip.
    Senator Inhofe. That would be good. That would be good. If 
you would let me know so we can follow-up on this. And there 
are some other areas, too, that we will be able to talk about 
in more detail later.
    Good luck. I asked all the questions I could ask of this 
young man during the Armed Services hearing, so I will go ahead 
and give it to you.
    Senator Boxer. All right. Very good. Thank you, Senator.
    General, in order for our committee and other committees to 
exercise their legislative and oversight responsibilities, it 
is important that committees of Congress are able to receive 
testimony, briefings and other communications from you. Do you 
agree, if confirmed as the Chief of Engineers, to appear before 
this committee or before designated members of this committee 
and other appropriate committees of the Congress, to provide 
information, subject to appropriate and necessary security 
protection, with respect to your responsibilities as Chief of 
Engineers?
    General Van Antwerp. I do, Madam Chairman.
    Senator Boxer. All right.
    And then this is a question you answered at the Armed 
Services Committee, so I wanted to pose it to you today. Do you 
agree when asked to give your personal views, even if those 
views differ from the Administration in office at the time, 
whatever Administration that might be?
    General Van Antwerp. I agree.
    Senator Boxer. Thank you.
    Do you agree to ensure that testimony, briefings, documents 
and electronic and other forms of communication of information 
are provided to this committee and its staff and other 
appropriate committees in Congress in a timely manner?
    General Van Antwerp. I agree.
    Senator Boxer. OK.
    Do you know of any matters which you may or may not have 
disclosed that might place you in any conflict of interest if 
you are confirmed as Chief of Engineers?
    General Van Antwerp. None.
    Senator Boxer. Excellent.
    Now, I just want to ask you a question about my big worry 
in California, which is the Sacramento area. General, at last 
month's hearing on the Army Corps' budget and WRDA, I discussed 
with Secretary Woodley a critical public health and safety 
issue in my State: the threat of catastrophic flooding faced by 
the people of Sacramento. I would like to take a few moments to 
discuss it with you now.
    As you well know, Sacramento is situated at the confluence 
of two great rivers, the American and the Sacramento. This 
large floodplain is home to nearly 500,000 people and contains 
165,000 homes, 1,300 Government facilities, including the State 
Capital, and businesses providing 200,000 jobs.
    This area is as big as some States. Throughout its history, 
Sacramento residents have lived with devastating flooding, the 
last in 1986. The cost in lives and treasure can be enormous. 
It is estimated that a major flood could cause between $7 
billion and $16 billion in direct property damage. That doesn't 
even include indirect.
    Thankfully, the people of Sacramento, including the Mayor 
and city government officials, have worked together with the 
corps in a very cooperative way to develop a plan to greatly 
improve Sacramento's flood control. It is called the Joint 
Federal Project at Folsom Dam.
    I understand that the proposed Folsom Dam Improvement 
Project is in the final stages of review. It has been a little 
bit difficult for me because, frankly, I have heard it is in 
the final stages of review for how long now, Jeff? The last 
year or so. Oh, you are going to get it tomorrow and the next 
day and the next day.
    And so I need to ask you at this time. Do you support this 
project?
    General Van Antwerp. I do, ma'am.
    Senator Boxer. Good. And will you visit Folsom Dam and 
Sacramento with me?
    General Van Antwerp. I will.
    Senator Boxer. That is good. And what steps will you 
personally take to make sure this project stays on track?
    General Van Antwerp. As I understand it right now, the 
post-authorization report will be rendered in June, which I 
think is excellent. That puts us on the way, and then it is a 
902 issue, which makes the adjustment so that it can be funded. 
So what I have been told by the corps is that they anticipate 
that this project is going to move absolutely on schedule, 
working out all the details with the Bureau of Reclamation and 
other things as well.
    It sounds like it is on track. I will do everything if 
confirmed to make sure it stays that way.
    Senator Boxer. I am very grateful, because there, but for 
the grace of God. We need to be thankful that we have not been 
hit like Louisiana was hit. I share Senator Vitter's and 
Senator Landrieu's deep concern about making sure that those 
good people there get the protection they deserve and the 
justice that they deserve.
    And also Senator Feinstein and I are focused like a laser 
beam on this particular area because we know. All you have to 
do is just look at the maps and look at the photographs to know 
what we are dealing with here. We have a solution, a very good 
solution.
    By the way, it was just very tough to get the political 
will to come together around this solution. So we have solved 
that problem. The reason I am pushing so hard not to see any 
slippage here is that the WRDA bill, as you know, is going to 
come to the floor--I knock on wood on that; that is the promise 
I have been given--in May. And then we will try to go to 
conference very quickly, because we all view the WRDA bill as 
old business. We are going to need WRDA II right behind it.
    So we need to get WRDA I done here. It is the first time in 
6 years we will have a bill. But I need to know the dollars so 
that I can now make sure that project is on track. So that is 
the reason it is so important we don't have any delays, saying 
Senator, I can't give you a number; I think it is this or that. 
I am going to need you to say, this number will cover it. And 
then we can move on and then make sure that we get you all the 
funding that you need.
    I just want to thank you very much. We are so optimistic 
that you are the right person for this job. I am really looking 
forward to working with you.
    Senator Cardin.
    Senator Cardin. Thank you very much, Madam Chair. Again, I 
thank you for having this hearing to give me a chance to go 
over some of the priorities of Maryland.
    General, you and I had a chance to talk yesterday. I am 
going to start off with a problem that affects one of our 
smaller municipalities in Maryland, Chesapeake City. It has a 
population of a little over 735 people. Several years ago, the 
Army Corps in deepening the sea and the canal, removed the 
water line between the town. The town is divided by the sea and 
the canal. Therefore, the ability of having one water supply 
was compromised. They have to have separate facilities on both 
sides of the canal.
    The Water Bill in 1999 authorized the corps to evaluate the 
town's claim of damages to its water supply. The Philadelphia 
District Engineer determined in September, 2003 that replacing 
the water line and making the system whole again was 
appropriate. He recommended that a mitigation package move 
forward. There has been no progress since then.
    At the current time, there is bridge work being done which 
would give us an opportunity at the time that that work is done 
to correct the situation and connect both sides of the canal.
    I would like to have your assurance that this matter will 
be given immediate attention, and that if we can move forward 
in this way, that you will do everything you can to make sure 
that we can get this issue behind us.
    General Van Antwerp. Senator, if confirmed, you have my 
assurances on that. Post our conversation yesterday, we did go 
back to the district to make, No. 1, sure that they understood 
the time lines that they we were under here, so not to we don't 
miss a window of opportunity if that is the right way to go. 
Second, they are being encouraged them to put together a 
meeting right away, face to face, and make sure they we have 
all the information to make this decision.
    Senator Cardin. Thank you very much, General.
    The second issue I want to cover is one that I mentioned in 
my opening Statement. That is the moving forward with the mid-
bay James Island site. This would be the second project. The 
first, of course, is Poplar Island, that I mentioned in my 
opening Statement, which has been an extremely successful 
program. As I said, we had 1,100 acres that was eroded to five 
acres. At one time, there was residential life on Poplar 
Island.
    What we are doing upon completion, it will have a half 
upland habitat and half wetlands. Trees, shrubs and grasses 
will be planted. We expect it will support terrapin, birds, 
mammals, including foxes, raccoons, squirrels and deer. So this 
is a real win-win situation. We are also going to be restoring 
wetlands. There will be habitats for fish, shrimp, crabs, shore 
birds, wading birds, and mammals.
    We want to move forward with a second project, as I 
mentioned before. The mid-bay project is on track, but we need 
to get the Chief's report in time, prior to the end of the 
fiscal year. I know that there is always some degree of 
uncertainty, but I would like to have your commitment that you 
will do everything you possibly can so that that report can be 
completed in a timely manner prior to the end of the fiscal 
year, so that that project can be properly considered by 
Congress.
    General Van Antwerp. Senator, you have my commitment. I 
might just add, after our conversation, my aide pulled up 
Poplar Island, and what was done there is just a magnificent 
project. On this particular project, I am told by the corps 
after we checked on it yesterday, was that everything is there 
for the Chief's report. All the information is there, so that 
it will go before a review board in July, and there is a strong 
likelihood by Labor Day, you could have the Chief's report.
    Senator Cardin. I thank you for that. It will be extremely 
helpful for the work of this Congress in dealing with the 
authorization. I thank you for that.
    Just generally, tell me your view as to the use of dredge 
materials for this purpose. It seems to me that Poplar Island 
demonstrates that this is a real win-win situation. I would 
hope that we would be looking for other opportunities where we 
can help commerce as well as help the environment.
    General Van Antwerp. I think in the right circumstances, it 
is an excellent model. The disposal of the dredged materials is 
a huge issue, and it is going to become an even bigger issue as 
we are able to dredge ports and harbors. The recreation of 
something that existed before, the restoration, the positive 
environmental impacts of it are all excellent. And then it 
gives you other kinds of protection as to the meandering of the 
river and other things. That now forms what was natural in that 
river to begin with.
    So I am a big fan of it and in favor of it. I hope the 
corps can move forward with James Island.
    Senator Cardin. I thank you for that. I don't want this 
opportunity to go by without me extending an invitation to join 
us in hopefully touring the bay area, the waterways around 
here, to get a better understanding of what I think our 
challenges are, so that we can work together. I would enjoy an 
opportunity for us to be able to do that.
    General Van Antwerp. I will do that. I thank the Senator.
    Senator Cardin. Thank you, Madam Chair.
    Senator Boxer. General, get ready. You are going to see the 
country with us. We are very excited.
    General Van Antwerp. That is why I love this work.
    Senator Boxer. I know. It is very exciting, isn't it? I 
think the one thing that pulls the country together is people 
everywhere want the same thing. They want a good quality of 
life with their families, in good communities, solid, and not 
to have to worry about things that they really don't have 
control over, which is where we come in.
    General Van Antwerp. Right.
    Senator Boxer. We have to give them that solace. They pay 
their tax dollars in order for us to do that. So it is going to 
be an interesting time for you.
    Senator Vitter, you have 10 minutes. Please go ahead.
    Senator Vitter. Thank you, Chairman Boxer.
    Again, General, thank you.
    I wanted to start very broad brush in terms of the Katrina 
experience, and ask you what is your general understanding of 
the causes of flooding in Greater New Orleans immediately 
following Hurricane Katrina?
    General Van Antwerp. I think probably on the large scale, 
it was because it didn't operate as an integrated system. That 
was one of the issues. You certainly had the levee breaches, 
which were catastrophic. Once that happened, it changed the 
dynamics of other things, like whether the pumping stations 
would operate properly.
    I think in the future, one of the things, and it will be 
one of the areas that I will be committed to, is to get an 
integrated system; you have the right levees with the right 
armoring on the back side and the right erosion protection. I 
think that was part of the problem. They were inundated for a 
long time, and that caused more erosion than was expected, and 
that did it. And then you had the severe breaches.
    Pumping stations, there is no question that is a problem. I 
think the loss of wetlands over time, and the loss of wetlands 
in this storm is something that needs to be dealt with. Those 
wetlands dissipate the storm, as you know. They take a lot of 
the heat, if you will, out of the surge.
    And then there are other things like floodgates and those 
things that I understand the corps is building now, and needs 
to be in place and operating so that that all can operate as a 
system.
    And then you have the monitoring of the storm. You have to 
know where it is coming, when it is coming, and be able to 
predict, so you know to start the pumps and close the gates and 
do those things.
    Senator Vitter. Let me focus my question a little bit more. 
What is your general sense of the natural factors which led to 
the catastrophic flooding, versus man-made issues and factors?
    General Van Antwerp. I see.
    Senator Vitter. Where do you place the corps in that?
    General Van Antwerp. I guess as you look at the storm 
surge, the direction of it, the high winds, and then some of 
the manmade things, the subsidence of some of the levees, that 
storm was something that was larger than I think we had 
predicted. As weather patterns change in the United States, I 
think one thing we learned from it is that you have to adjust 
your thinking as time goes on because weather patterns do 
change. If you are now expecting more winds, high storm surges, 
that has to be accounted for.
    I think one of the challenges in process reform, as we look 
at the processes, how do you account for that in projects that 
are authorized and built? How do you account for those new 
things that are just in the weather predicted?
    Senator Vitter. I know you are going down to the area in 
the next few days, General. I thank you for that. I would 
encourage you to get a full briefing from your folks on the 
ground about exactly what happened in different parts of the 
city. The main point, which I think is all too often forgotten 
in discussions up here in Congress, as well as in different 
agencies, including the corps, is that for the great majority 
of the city, everything west of the industrial canal, the levee 
system was not over-topped. The levee system was not overcome 
by anything which was above its design.
    It failed from below, and specifically on the three outfall 
canals which accounted for the huge majority of the flooding, 
at least west of the Industrial Canal. There was no over-
topping. There was no new weather pattern that was beyond 
design. The system literally failed from below because of poor 
design.
    The reason I start here is because I think that is a pretty 
darn important point to understand in terms of where we are 
coming from, to understand where we need to go. There is a big 
difference between a storm that was just greater than the 
design, which is arguably was east of the Industrial Canal, to 
a storm that wasn't, but a system that failed because of design 
flaws west of the Industrial Canal.
    So I would really encourage you to enter into a full 
discussion of that when you are down there, because that is at 
the heart of this experience and the heart of a lot of my 
constituents' loss of everything they had.
    You have described yourself since your nomination as a 
change agent for the corps. What are two or three of the top 
priorities for reform and change you have for the corps?
    General Van Antwerp. That is a great question, Senator.
    First of all, I would say I am going to have to do a lot of 
assessing, because I am right now the Commander of Accessions 
Command so I have been looking at it from the outside. But I 
think a couple of the areas that are already in progress, and 
those are areas of review, peer review, outside review. I think 
those are good things. I believe in the biblical principle that 
there is wisdom in other counselors, and I think that is good.
    I think it is OK to check your work on science. I think, 
another issue is, we talked in your office, the planning 
process, the length of time. As your Statement mentioned, that 
has to be taken a good look at.
    And then, how we do the cost benefits. There is no question 
in my mind that public safety is an important, if not the 
important issue. It is job one. Other things revolve around 
that, especially when it has to do with the coastal areas.
    So those are three areas that I would think that I am going 
to take a look at very early on.
    Senator Vitter. Great. The current Administration coming 
out of Katrina, starting with the President, out of his mouth, 
made a very crystal clear commitment to a 100 year level of 
protection in Greater New Orleans by 2010. Do you have any 
reason to believe that the Administration or the corps has 
backed off of that commitment in any way?
    General Van Antwerp. I have no reason to believe they have 
backed off that.
    Senator Vitter. OK. Do you have enough information to make 
an assessment of how we are getting to that goal by 2010?
    General Van Antwerp. I do not have that information now. I 
believe in a day or two, I will be much clearer on that.
    Senator Vitter. Again, I would invite you to visit our 
State with that in mind, because I have a great concern that 
while that crystal clear commitment has been made, starting 
with the President, we are not near on track for that.
    In the last year in particular, it has become very clear 
that the initial cost estimates of that work are low. It may be 
because they were made very quickly to begin with, and it may 
also be because Katrina put a big increase in both labor and 
material costs, so maybe both of those things together.
    One thing we need to do to get back on track is get new 
reliable cost numbers. Do you know, and I have been pushing the 
corps for it, what those are? Do you know when the corps will 
be prepared to update those cost figures?
    General Van Antwerp. Senator, what I am being told is that 
in July, there will be some of those estimates that should give 
us a very close picture of that. And then in December 2007 will 
be the final report.
    Senator Vitter. OK. I think we absolutely need it. A 
December, 2007 report I think is looking more long range at it.
    General Van Antwerp. For the total system.
    Senator Vitter. A new system. Really, what I am talking 
about is the first step, not the new system, but the 100 year 
level of protection, which is the immediate ongoing work. I 
would really encourage the corps to update those cost figures 
as soon as possible, by July or sooner, because I think what 
you are going to see is additional billions of dollars, several 
billion dollars, required. There is a commitment to get there 
by 2010, but unless we start addressing a gap of several 
billion dollars, I don't know how we can possibly do it.
    In that regard, I would again renew my objection to the 
Administration's plan in the current proposed budget of moving 
money around within the area, but not bringing new money to the 
table. If it is going to take $5 billion or $6 billion more, 
which is what I am hearing, we need to start producing that 
now, to have any hope of coming close to 2010.
    I think 2010 is a pipedream as we speak, unfortunately, but 
we can come in close to 2010. I am hopeful Congress is going to 
start to do that, even over the objections of the 
Administration, but I would hope we could all start meeting 
that need with this current supplemental spending bill.
    Senator Boxer. Your time is up, Senator. Can you submit 
your other questions for the record?
    Senator Vitter. Yes.
    Senator Boxer. Thank you very much.
    Senators Isakson and Craig, you have 5 minutes for an 
opening Statement and questions.
    Senator Isakson.

        OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. 
               SENATOR FROM THE STATE OF GEORGIA

    Senator Isakson. Thank you, Madam Chairman. I will probably 
try and do both within one 5 minute period, if I can.
    Thank you very much, General, for being here. Thanks for 
your service to the country, and in particular your command of 
all recruiting, if I am not correct, for the past 2 or 3 years, 
at a very difficult and challenging time. That is a great 
achievement and you have done a great job. We appreciate it.
    And thanks for visiting me yesterday. I am going to be very 
redundant. It is always nice to get things on the record. I 
appreciated your time yesterday.
    We have had a 17-year battle going on, so to speak, between 
Georgia, Florida and Alabama, with regard to the Chattahoochee 
River and the ACT/ACF river basins. We have spent most of our 
time in court. Currently, the Chattahoochee River is regulated 
by an interim operating plan which was basically directed by a 
judge in response to an Endangered Species action regarding a 
sturgeon. It has resulted in lake levels and winter pool levels 
that are disproportionately out of whack, one lake reservoir to 
the other. You have three great States, all who share a 
tremendous need for the reliability of that water and its flow.
    In the end, two things have to happen. One is the States 
have to reach agreements, and I understand that. But there also 
has to be a new water control plan. Myself and Senator 
Chambliss had met with Secretary Harvey last year and had 
innumerable meetings with the corps, and had had an agreement--
and I know he is not here anymore, and that agreement wasn't 
with you--to begin the water control plans in January of this 
year. That has not happened yet for reasons that have been 
explained to me.
    But as our conversation indicated yesterday, I would hope--
and you have a million things on your platter, and just 
listening to David talk about New Orleans, and obviously the 
ramifications of Katrina, and every one of us have projects--
but I hope there would be some way that we could use the water 
control plan as a catalyst for improving and expediting the 
mediation that the States must do. Because I don't think those 
three States can make a final decision for a tri-State compact 
without the water control plan at least in tandem, because the 
compact won't be final until the water control plan is.
    So that is a discombobulated question. It is almost a 
political Statement. But your help and attention to that would 
mean an awful lot to my State and to the State of Alabama and 
the State of Florida.
    [The prepared Statement of Senator Isakson follows:]

        Statement of Hon. Johnny Isakson, U.S. Senator from the 
                            State of Georgia

    Thank you Madam Chairman. Welcome General Van Antwerp to 
the committee. I thank you for taking the time to meet with me 
yesterday in my office and thank you for your service to our 
nation. For those of you on the committee who don't know, 3 of 
General Van Antwerp's sons have served or are serving in Iraq, 
and I personally would like to take this opportunity to thank 
you and you family for your service and sacrifice on behalf of 
our nation.
    This hearing is a good opportunity for us to learn about 
General Van Antwerp's vision for the Army Corps, and about what 
we can do as partners with the corps to ensure it meets its 
goals. I have a number of issues I am eager to hear from 
General van Antwerp on. I am interested in hearing in what 
course of action he plans to reduce the corps' backlog of 
projects, as well as to improve its business practices. On the 
local level, and General Van Antwerp and I spoke about this 
issue yesterday, I am very interested in what the corps is 
doing to meet its promise of beginning the update of the water 
control manuals for the ACT and ACF river basins in my State. 
In face to face meetings with the corps, I was promised that 
the updates would begin on January 2nd of this year, however to 
date no action has been taken. However, as General Van Antwerp 
shared with me yesterday, there are steps that the corps can 
take to begin the process and I look forward to exploring that 
in more depth.
    In an effort to move to the witness I will cut short my 
statement here, and I thank the Chair for calling this hearing.
    I yield back my time.

    General Van Antwerp. I confirm that I commit to giving it 
that attention.
    Senator Isakson. And I appreciate that very much.
    My second question is that, well actually, one other 
comment and then a question. The State of Georgia and the State 
of South Carolina on our eastern border, the two Governors have 
reached an bi-port agreement to seek the feasibility of 
developing a new port in Jasper County, South Carolina, closer 
to the mouth of the Savannah River, between the Port of 
Savannah and the Atlantic Ocean. That land area has been under 
lease by the State of Georgia from the State of South Carolina 
to deposit the environmental dredging that has taken place to 
keep the channel clear.
    The two States reached a compact and agreed to pay for the 
cost of a feasibility study. When Secretary Woodley was here 
four or 5 weeks ago, I asked him, and he confirmed that the 
corps would certainly agree to spend somebody else's money to 
facilitate that. I wanted to make you aware of that.
    My question is, and really my only question, the 
President's budget, as I understand it, reduces spending for 
operations and maintenance in navigation projects. By some 
estimates, it spends only about one half of the Harbor 
Maintenance Trust Fund receipts and collections.
    Given the tremendous asset of our ports of Brunswick and 
Savannah, South Carolina's in Charleston, and the Port of New 
Orleans, and you can go around the country, shouldn't we be 
investing 100 percent of those proceeds in the maintenance of 
those harbors?
    General Van Antwerp. There is no question, Senator. As we 
discussed, there is a big backlog in the dredging. In our 
conversation where I understand the rules and laws to be right 
now, is that it is on-budget, has to have appropriated funds 
for the trust fund to add to it.
    So if there was a way to take it off budget, in that a 
project that has zero funds appropriated could draw off the 
trust fund, then that would be the mechanism to do it, as I 
understand it. I commit to looking at that, too, but that is 
how I understand it to work today.
    Senator Isakson. I thank you for your time.
    Thank you, Madam Chairman.
    Senator Boxer. Senator, thank you. You got that right 
within the 5 minutes.
    Senator Craig, you have 5 minutes for opening and 
questions.

        OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. 
                SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Thank you very much, Madam Chairman. I will 
try to be a bit more succinct than that, but I do appreciate 
the time.
    General, it is great to have you before the committee.
    This is a comment and question combined, I guess. In the 
past, I have had several run-ins with the Army Corps of 
Engineers, and their interesting method of accounting. 
Specifically, their practice of borrowing from one project to 
pay for another. Although I can appreciate accounting 
flexibility to enhance efficiency, this practice has caused 
significant problems for projects in my State, General. My 
frustration lies not with the method of borrowing, but rather 
with the method of paying the money back.
    Funds that were appropriated for Idaho projects, but then 
moved to other projects are not replaced by the corps. I am 
required to get another directive--we used to call them 
earmarks, OK?--to replace those funds. Therefore, in essence, 
Idaho has to have money appropriated for many of its projects 
one and a half to two times.
    For example, in Fiscal Year 2007, the CR provided 
approximately $3.2 million for section 595 environmental 
infrastructure projects in Idaho. However, by the time the 
corps uses that money to pay back Idaho projects they borrowed 
from, only about $1 million will be left. This is frustrating. 
This is a frustrating situation for communities that are 
struggling to get into compliance with Federal standards and 
are depending on this money so they can leverage other 
resources.
    I know I am not alone. My colleagues have had the same 
problem with the process. I am very interested in seeing a 
better system put in place.
    So General, can you explain the logic of the practice, and 
also what you plan to do to address it?
    General Van Antwerp. Senator, that is a great question. I 
can just draw back on my experience as a division commander in 
the Corps of Engineers. I commanded South Atlantic Division. It 
had to be absolutely necessary before I would allow a 
reprogramming, the reason being just as you stated. Now, there 
are times when projects are not ready to accept the funds and 
take the funds, and other projects are, that are beneficial and 
of a higher priority or of the same priority. That is generally 
when that reprogramming is done, but then it causes the 
earmarking and another appropriation to go with it.
    I understand your frustration and appreciate the 
frustration. I would commit, if confirmed, to looking into 
that, and to seeing how that can be minimized or decreased as 
much as we are able to do it. I think if you are going to buy 
down the backlog of projects that this country has, you have to 
complete projects and complete them on time and get them off 
the books. And then those projects, as you say, the problem 
with having to earmark it and do it is whether or not you get 
those replacement funds. That is the challenge and it is hard 
on the communities. I appreciate that.
    Senator Craig. General, thank you very much for that 
comment. I know that in civilian life, old habits are hard to 
break. In the military sometimes it is nearly impossible.
    General Van Antwerp. That is true.
    [Laughter.]
    Senator Craig. So I think even in the answer to the 
question asked, you have a challenge ahead of you. I will stay 
with you on it. It is a tremendous frustration for all of us 
who attempt to work cooperatively with the Army Corps and with 
our communities of interest, and then to see it somehow not 
happen.
    I can understand timing and readiness and all of that. At 
the same time, a dollar is a dollar, and not effectively spent 
in 1 year becomes less than a dollar the next. We understand 
that.
    Thank you.
    Thank you, Madam Chairman.
    Senator Boxer. I want to thank you, Senator Craig. You 
certainly speak for me on this question. It is so frustrating. 
It isn't just the corps. It has happened to me in other areas. 
And I know a lot of times, it is because they just don't want 
to go ask for the money that is necessary.
    What I would urge you to do is just simply tell us. Tell us 
if you need to have additional funds. Look, it is our job, then 
put the problem on us, but don't take away these funds from 
other projects because it does disrupt.
    I had a situation with the FAA where we had to build a 
control tower, and they just took the money and said they would 
pay it back, and they didn't have money to pay it back. And 
then it means we have to go back once again, when we thought we 
took care of the issue.
    So I am really happy that you raised it. We want to work 
with you in a cooperative way. We know sometimes there is a 
legitimate reason, but at least it ought not to blindside us, 
and we ought to be working with you.
    So thank you, Senator.
    I would just like to say, General, if you have any 
additional remarks you would like to offer at this time, feel 
free to do it.
    General Van Antwerp. Ma'am, thank you very much. I am very 
honored to be here today. This committee is very important with 
the Corps of Engineers. I pledge to work with this committee 
and other committees that govern parts of the corps.
    I am committed to our coastal regions. I understand the 
cultural, historical, environmental and economic impact and 
importance they have to the country.
    I am committed to partnering at the local level, at the 
State, at the Federal, with Congress. As I Stated earlier, I do 
believe that public safety is a very, very important aspect of 
what we do. We have to be reminded of that.
    I am also committed, and I want you and the committee to 
know, I am committed to what I would term ``transparency.''
    Senator Boxer. Good.
    General Van Antwerp. That is where we let people know the 
risks that they have. In fact, I don't know that you can ever 
totally say you are risk-free, but people ought to know. People 
can take that. I would rather have them know.
    So I am committed to making sure people know the risks that 
they are taking, and that as we talk of those risks, it is 
backed up with good science. That doesn't mean that we are 
never going to discover a dam that has seepage or a levee that 
has problems the way it was built, but I think the corp is well 
on the way to fixing some of those issues right now.
    I think Katrina, as bad as it was, it certainly positioned 
the corps to look at some things it should have looked at for a 
long time. I think that is good.
    And then the final thing I would say. I am committed to 
disaster preparedness. I hear this conversation. My experience, 
of course, was with the Northridge earthquake. As you cited, we 
had an excellent relationship with FEMA. We had an excellent 
relationship with the local decisionmakers and everything.
    One thing I learned from that, you have to have the 
jurisdiction thing figured out well ahead of time. You have to 
have redundant communications. You have to have teams that are 
in areas not affected to be able to come to the affected area 
without having to worry about their own families.
    I think what happened in California, my experience there 
was that we practiced that preparedness. The local authorities 
and State authorities and everyone, we practiced it to the 
point that when it really hit, it was just execute what you 
knew to do. So I think in many ways, it is what we say in the 
Army, you are going to fight like you train. So that is part of 
it for me.
    I am committed, and the corps has already got some 
innovative practices here. I am committed to that.
    So I just wanted to make that as a Statement of my 
commitment to you and to this country.
    Senator Boxer. I want to thank you. I know Senator Isakson 
and I are the last few here, but on behalf of the committee, we 
are very appreciative. We really appreciate your experience, 
and we appreciate your openness. I personally feel your 
comments about coastal areas are so important because that is 
where people have moved to, and for a reason, the beauty, and 
being closer to God's natural environment. So it does pose 
issues for us, but we have to step up to the plate and be 
prepared to do what we have to do.
    I also so appreciated your comments on restoring our 
wetlands, because to me that is one of the great American 
tragedies that we don't think about that often. I think that we 
have lost about 90 percent of our wetlands across the country, 
and it is just tragic because as you say, they serve for so 
much good.
    I see the Senator Whitehouse has come. I am going to ask 
you to take the gavel from me, Senator, so come sit over here, 
because I am on my way out. We have basically completed, but 
before Senator Whitehouse takes over the gavel--please sit 
right here, and I will just pass it on to you.
    Senator Whitehouse. I am here until 5 minutes of four. Is 
that going to be a problem?
    Senator Boxer. No. You will be done.
    Senator Whitehouse. Great.
    Senator Boxer. We are finished. You are it.
    General Van Antwerp. Thank you, ma'am.
    Senator Boxer. This is what I want to say in conclusion. I 
want you to know that I strongly support this nomination, and I 
will do everything I can to move it to the floor and get it 
done. This is a position that is so critical to us. As I say, 
you are the right person at the right time. Your views, your 
commitment to openness and transparency, your experience--all 
of this adds up to me to be very promising.
    Before I leave, I just want to ask everyone to join me in a 
moment of silence for those lost at Virginia Tech in a 
senseless violent act. So let's just take a minute to think 
about them.
    [Moment of silence observed.]
    Senator Boxer. Thank you.
    I am going to pass the gavel over to you, Senator. You have 
a lot of power. Don't let him stage a coup. All of you who are 
militarily trained, I am counting on you. Take action if he 
starts waving that gavel like I do. Take immediate action.
    [Laughter.]
    Senator Whitehouse. [Presiding] Civilian control.
    Senator Boxer. Civilian control. There you go.
    Senator Whitehouse, thank you so much. If anyone does come, 
they get 5 minutes to make a Statement and to ask their 
questions, but you will be free, I am sure, in just a few 
minutes.
    Senator Whitehouse. Very good.
    Senator Boxer. Thank you.

         STATEMENT OF LIEUTENANT GENERAL ROBERT L. VAN 
 ANTWERP, JR., TO BE CHIEF OF ENGINEERS AND COMMANDING GENERAL 
          OF THE UNITED STATES ARMY CORPS OF ENGINEERS

    General Van Antwerp. Ma'am, as you leave, if I could make 
one statement. General Strock's son goes to Virginia Tech and 
lost 10 friends yesterday. So the Strocks are headed that way 
as we speak. As you remember, the faces are with the tragedy, 
but their experienced in that, and his son is grieving, as you 
can imagine.

   Responses by Robert L. Van Antwerp, Jr., to Additional Questions 
                          from Senator Carper

    Question 1. Land use decisions, building codes and other 
state and local policy decisions have a huge impact on the 
effectiveness of corps flood control projects. But the corps 
has no role in those decisions, nor do they appear to 
necessarily be a part of the design of particular flood control 
projects. How could better coordination with state and local 
development decisions increase the effectiveness of corps' 
projects?
    Response. In the United States, the responsibility for 
managing flood risks is shared across the Federal, state and 
local levels of government. Even in areas where a Federally 
constructed flood control structure may reduce the likelihood 
of flooding, sound floodplain management choices at the State 
and local level are critical for protecting public safety and 
effectively managing flood risk.
    It is my understanding that the corps is working to improve 
coordination with state and local governments through meetings 
that allow both corps and FEMA senior leaders to meet on a 
regular basis with stakeholder groups representing the non 
Federal perspective to receive feedback on specific policy and 
implementation issues faced at the State and local level.
    Along with these steps to improve coordination with State 
and local Governments, the corps also supported and 
participated in discussions with other Federal, State, local 
and private sector experts at a December 2006 National Flood 
Risk Policy Summit, sponsored by the Association of State 
Floodplain Managers (ASFPM) and the National Association of 
Flood and Stormwater Management Agencies (NAFSMA) to discuss 
new policy options for improving national flood risk 
management. Many of the ideas raised involved measures to 
improve Federal support of sound floodplain management planning 
at the State and local level. Such suggestions included:

    -Adopting mechanisms to create incentives at the State, 
regional and local levels of government to encourage the use of 
sound floodplain and flood water management measures.
    -Improving the communication of residual risks, including 
the mapping of areas subject to residual risk and requiring the 
purchase of flood insurance in such areas
    -Better integration of Federal, State, regional and local 
planning by providing the corps, and other Federal agencies, 
with the authority and funding necessary to participate in 
locally driven, comprehensive water resources planning.

    Question 2. We have had people testify before this 
committee that levees should be considered an option of last 
resort and used only to protect existing communities. What is 
your opinion on this statement and why this is not the case in 
our current flood control program? How does the current 
structure of the federal flood insurance program impact flood 
control project decisions?
    Response. From my understanding, the corps concurs that 
levees should not be used as a means to promote the development 
of currently undeveloped floodplains. The corps only constructs 
levees where there are benefits to the nation that exceed the 
costs of the levee. When evaluating the benefits of preventing 
future flood damages to homes, business and other structures, 
the corps only calculates damages prevented to the existing 
community. The corps does not count benefits that might accrue 
to future development for justification.
    Nonetheless, in cases where a corps levee is justified and 
constructed to provide benefits to an existing community, it is 
the State and local governments that will decide what future 
development may be allowed in the affected area. In my opinion, 
it is critical that the corps and FEMA remain engaged in 
ongoing coordination with State and local governments to 
support sound floodplain management decision making and to 
accurately communicate the ``residual'' risks associated with 
developing in areas behind levees.

    Question 3. The Federal dredge fleet has been used to 
respond to emergencies in recent years. This includes the 
Wheeler in New Orleans that has been used beyond its maximum 
number of days--set when it was put into ``ready reserve'' 
status--in recent years. Considering that, how small can the 
federal dredge fleet be and still ensure the necessary response 
to emergencies? And should there be a federal dredge on the 
East Coast?
    It is my understanding that the corps relies first on the 
private sector and second on the minimum fleet of corps dredges 
to perform dredging, including emergency response. In June 
2005, the corps submitted a report to Congress that recommended 
the hopper dredge McFarland be retired as the private sector 
has proven its capability to address the Nation's dredging 
needs, including emergencies. The corps continues to operate 
the McFarland while it awaits Congressional direction. If 
Congress directs implementation of this recommendation, the 
corps would have 2 dredges on the Pacific Coast and the dredge 
Wheeler on the Gulf Coast. The dredge Wheeler was designed for 
operating characteristics of the Mississippi River, but is 
capable of mobilizing on short notice and deploying to other 
locations when needed.
    I have been informed that the private sector dredges have 
demonstrated the ability to meet the vast majority of dredging 
needs. Private sector dredges accomplished 89 percent and 83 
percent of the work by cost and volume, respectively, over the 
past ten years.
    The corps report mentioned above recommended a plan that 
would schedule the corps hopper dredge Essayons for 215 days 
annually, schedule the Yaquina for 178 days annually, keep the 
Wheeler in ready reserve, retire the McFarland, and continue 
the initiatives from the Industry Corps Hopper Dredge 
Management Group. According to the report, this plan would 
result in a $10.1 million annual net reduction in the total 
cost for hopper dredging, offer approximately 55 days 
additional work to the industry annually, ensure that there is 
a viable reserve capability ready to respond to unforeseen 
requirements, and ensure that Federal projects requiring hopper 
dredging can be accomplished in a timely manner and at 
reasonable cost.
    If confirmed, I will continue to evaluate the situation and 
implement what is ultimately recommended by Congress.

    Question 4. In March 2006, the government Accountability 
Office has testified that corps studies are often ``fraught 
with errors, mistakes, and miscalculations'' and use ``invalid 
assumptions and outdated data.'' GAO also said that these were 
recurring problems indicate that the corps' planning and 
project management processes ``cannot ensure that national 
priorities are appropriately established across the hundreds of 
civil works projects that are competing for scarce federal 
resources.'' What changes do you think will be necessary for 
the agency to ensure that the corps can be relied upon to make 
important policy decisions?
    First, maintaining the technical competence of the corps is 
of paramount importance. Attracting and retaining highly 
skilled and talented employees is critical to maintaining 
technical competency. The corps must train, equip and challenge 
its people properly, and continue to move forward as a 
recognized leader in developing and implementing the best 
technology. The integrity of the Corps of Engineers rests on 
the objectivity, transparency and scientific validity of its 
analytical processes.
    Another major issue relates to the ever changing nature of 
the missions assigned to the corps and the changing 
expectations of the nation. I believe the outputs expected from 
the corps, the tools it uses in delivering those outputs and 
the nature and composition of partners it works with, will all 
continue to change dramatically. I foresee a need for more 
collaboration and comprehensive water resources and 
infrastructure solutions, new and innovative approaches and the 
likelihood of situations where the corps may serve as a member 
of a team, rather than having plenary control over development 
of solutions, as was common in the past. Determining the right 
strategic direction will be a major challenge, but it is 
essential to success.
    My understanding is that the corps has made substantial 
changes to assure that projects are appropriately analyzed and 
justified. The corps has strengthened its own procedures for 
internal peer review and adopted procedures for external peer 
review under guidance issued by the Office of Management and 
Budget. The Directorate of Civil Works now houses an Office of 
Water Project Review that is separate from project development 
functions. It is my understanding that a significant program of 
planning improvement is being undertaken that includes 
training, model certification, and centers of planning 
expertise.
    Finally, if confirmed, I will insure that corps technical 
analyses are sound and the project evaluation process is 
transparent. The Chief of Engineers must be trusted with the 
technical discretion essential to meeting our nation's water 
resources needs. External reviews can contribute to reducing 
controversy and risk, but these reviews must be integrated into 
the project development process not added at the end of the 
process. Integration of external review will improve projects 
and will assist the corps in meeting urgent needs in a timely 
manner.
                                ------                                


   Responses by Robert L. Van Antwerp, Jr., to Additional Questions 
                          from Senator Cardin

    Question 1. The Town of Chesapeake City, Maryland, sits 
astride the Chesapeake and Delaware Canal, which is the 
shipping channel that connects Delaware Bay to the Chesapeake 
Bay. Originally, Chesapeake City had a drinking water line that 
ran under the C&D Canal. When the Corps of Engineers deepened 
and widened the Canal several decades ago, the corps removed 
Chesapeake City's water line, essentially leaving the community 
with two separate water treatment and distribution systems. In 
the 1999 WRDA bill, Congress authorized the corps to evaluate 
the town's claim of damage to its water supply system. The 
Philadelphia District Engineer determined in September 2003 
that replacing the water line and making the system whole again 
was appropriate and he recommended that mitigation package. 
Since that time, Corps Headquarters has refused to compensate 
the Town pending ``additional documentation to support its 
claim.'' The Town of Chesapeake City has a population of 735 
people. Some of the issues surrounding this issue go back 
decades, and the tiny town staff does not have the resources to 
undertake extensive additional research. You already have a 
District Engineer report that clearly determined the validity 
of the compensation. That report contains a statement from 
Corps Counsel that the report was fully reviewed and approved. 
Can I have your assurance that the corps will waive any 
additional requests for documentation and get on with making 
Chesapeake City's water system whole again?
    Response. If confirmed, I assure you that I will do 
everything possible to move this effort along. As you state, 
the issues surrounding this project are decades old. The 
specific issue at hand is not whether the Town of Chesapeake 
City deserved compensation for damages to its water system. 
Because that is the case, the corps, at Federal expense, 
provided the town with a water tower and ultimately a 
modification to its distribution system. The issue raised with 
the 1999 authority is whether additional compensation is 
necessary. It is my understanding that in January 2004, as part 
of the review process for the decision document under the 1999 
authority, the Corps headquarters determined that the 
information provided in the report did not adequately support 
the recommendation that additional compensation is required. As 
you and I discussed, the corps, the town, and your staff have 
been working to bring this matter to closure. Information that 
has been provided by the town is being used to address the 
outstanding review comments, hopefully it will be sufficient to 
address those comments and substantiate a compensation amount, 
if one is warranted. If confirmed, I assure you that I will 
move quickly on the recommendations contained in the final 
report.

    Question 2. What is the status of the feasibility study on 
the Mid-Chesapeake Bay Island Ecosystem Restoration Project? 
Specifically, I would like to know: Aside from questions which 
may arise during your considerations, do you have all 
information, reports necessary for processing a Chief's Report 
for the Mid-Bay Islands project? What procedural steps remain 
before the corps can issue a Chief's Report? What is your 
current schedule for issuing a Chief's Report for the Mid-Bay 
Islands project, and if the project is reviewed by the Review 
Board on July 19th, can you issue a Chief's Report before Labor 
Day?
    Response. From what I understand, the Corps of Engineers, 
Baltimore District, is currently addressing comments from the 
Corps Headquarters. This revised information will be included 
in a presentation before the Civil Works Review Board, 
currently scheduled for July 19, 2007. As a matter of general 
practice, subject to approval by the Board, the feasibility 
report is distributed for a 30-day state and agency review. 
Once any comments are addressed, the final Chief's report is 
prepared and forwarded for consideration by the Chief of 
Engineers. This process will likely take longer to produce a 
final report than by Labor Day; however, if confirmed, I am 
committed to ensuring that this process moves forward as 
expeditiously as practicable.
                                ------                                


   Responses by Robert L. Van Antwerp, Jr., to Additional Questions 
                          from Senator Vitter

    Question 1. General Strock, the current Chief of Engineers, 
admitted that the corps erred in some decision regarding the 
design and construction of the protection system in the New 
Orleans area. I appreciated the General's comments.
    Response. While the corps acted with urgency immediately 
after the storm, the work has returned to a business as usual 
pace with urgent work still incomplete. This pace is not 
entirely the fault of the corps. Both the ASA and OMB play 
significant roles in these delays. Noting the corps' fault 
acknowledged by Gen. Strock, can you explain to the committee 
what steps you would take to ensure that the corps will 
accelerate their work under your command?
    It is my understanding that the Corps of Engineers is still 
committed to proceeding with the urgency necessary to provide 
system protection in the greater metropolitan area. This 
includes bringing three major projects to the 100-year level of 
protection (Lake Pontchartrain and Vicinity, New Orleans to 
Venice, and West Bank and Vicinity). The corps team, including 
the Mississippi Valley Division, Task Force Hope, New Orleans 
District, and devoted employees throughout the corps has worked 
diligently to assure the greatest degree of protection 
available for the 2007 hurricane season. All 40 outfall canal 
pumps were online by June 1, 2007. These pumps were mandatory 
to protect from ponded rainfall flooding should the level of 
Lake Pontchartrain necessitate the closing of the newly 
constructed floodgates at the three Outflow Canals in Orleans 
Parish. The Corps of Engineers was delayed for a short period 
of time as it was unable to fund contracts for restoring levees 
and floodwalls to authorized grades and to accelerate the 
completion of uncompleted portions of authorized projects. With 
your help in the passage of the ``U.S. Troop Readiness, 
Veterans' Care, Katrina Recovery, and Iraq Accountability 
Appropriations Act, 2007'', the corps has the funding to move 
forward and is reconfirming the priority project lists as the 
teams begin to advertise contracts. If confirmed, you have my 
firm commitment to continue the task of bringing the system to 
the 100-year level of protection as a top priority and will 
continue to push forward to complete this work as soon as 
possible.

    Question 2. The Mississippi River Gulf Outlet is 
responsible for the loss of tens of thousands of acres of 
coastal lands and serves as a conduit for storm surge into St. 
Bernard and Orleans parishes. The corps spent about $4 million 
studying this in the late nineties and again early this decade. 
Unfortunately, neither study yielded a report.
    The channel needs to be closed. I passed an amendment that 
requires a closure plan, but am told the corps cannot produce a 
final version until December.
    In cases like this where the need is unquestionable, do you 
think that it is necessary to drag out these conclusions?
    Response. The Corps of Engineers is committed to meeting 
the Congressionally mandated reporting schedules established 
for the de-authorization of the MRGO. From what I understand, 
language in the 4th Supplemental (P.L. 109-234) directed the 
Chief of Engineers to prepare a comprehensive plan for de-
authorizing deep draft navigation on the MRGO between the GIWW 
and Gulf of Mexico. The language called for submittal of an 
interim report in December 2006 and integrating a final de-
authorization plan into the Louisiana Coastal Protection and 
Restoration (LACPR) final technical report due to Congress in 
December 2007. The corps submitted the interim report ahead of 
schedule and the report highlighted total closure of the MRGO 
as the most promising alternative. Recently the corps released 
a draft executive summary of the final report and hosted a 
public information meeting in Chalmette, Louisiana, to present 
the draft plan for de-authorizing the MRGO. More than 100 
citizens attended the meeting. The corps is working to complete 
an Environmental Impact Statement and to incorporate the de-
authorization plan into the final LACPR report. This is an 
important component of this work because it provides an 
opportunity for public involvement and will help ensure that 
plans are considered from a systems perspective. If confirmed, 
I will ensure that the corps continues to work with a sense of 
urgency on this issue and will meet or beat the Congressional 
deadline for submittal of the final MRGO de-authorization 
report.

    Question 3. Debris removal is a very complex process. 
Following Hurricane Katrina, 3 federal agencies have been 
involved in the removal of disaster waste. In some cases, these 
practices have appeared to conflict with other corps missions 
such as wetlands and hurricane protection. I have asked the 
federal agencies to conduct a review of state practices to 
ensure these are environmentally sensitive. Can you commit to 
this?
    Response. I believe the corps must execute all of its 
missions and projects in an environmentally sustainable manner. 
If confirmed, I am committed to reviewing the current policies 
and procedures and practices, both within the corps and with 
the other agencies involved, to ensure that the debris removal 
mission is being conducted in accordance with environmental 
laws, regulations, and policies.

    Question 4. Coastal wetlands are governed under the same 
rules as traditional, inland wetlands. However, in Louisiana we 
are losing 35 square miles of land per year. In some cases, 
small projects to protect and restore coastal Louisiana have 
been stopped due to 404 wetland permits.
    Do you believe that the rules should be different for 
threatened coastal wetlands versus inland wetlands?
    Response. I do believe wetland restoration projects, 
particularly those within coastal areas, should receive 
streamlined and flexible permitting processes to encourage 
their construction. It is my understanding that the corps has 
already taken steps to improve the flexible permitting through 
its revised Nationwide Permits, and encouraging the development 
and use of Regional General Permits for streamlined permitting 
of similar activities within a specified region or state. 
Additionally, it is my understanding that the corps and the 
U.S. Environmental Protection Agency are evaluating the use of 
the watershed approach to mitigation. By evaluating impacts and 
mitigation at the watershed level, areas with the need for 
coastal wetland restoration and mitigation can be prioritized 
and directed quickly and efficiently.

    Question 5. We lost 217 square miles of coastal Louisiana 
over two days in 2005--the two days that our state was hit by 
Hurricanes Katrina and Rita. We normally lose around 35 square 
miles of land per year. The primary cause of this annual 
erosion is the installation of levees on the lower levee system 
by the Corps of Engineers.
    South Louisiana is a very dynamic and productive coastal 
area that provides our nation with over 20 percent of this 
nation's energy, hosts the world's largest port system and is 
one of the top fishery producers in the country.
    The traditional corps process of studying, designing, 
authorizing and constructing projects is not the solution to 
our rapidly-changing area.
    Members of the Administration have recognized the fact that 
the stovepipe project process is not a solution and have 
advocated a programmatic authority to protect and restore 
coastal Louisiana. Do you believe that a broad, flexible 
approach to protecting and restoring coastal Louisiana is 
preferable?
    Response. Yes, I do believe that a broad and flexible 
approach is preferable. It is my understanding that the Corps 
of Engineers, in cooperation with its partners and 
stakeholders, is looking at all alternatives for hurricane and 
storm damage reduction on our coasts, realizing the importance 
of system-wide approaches that incorporate a variety of 
protection techniques that do not rely solely on the more 
traditional structural measures such as levees or floodwalls. 
The Louisiana Coastal Protection and Restoration Program 
(LACPR) is doing just that. In partnership with the State of 
Louisiana, LACPR is looking at innovative alternatives to 
reduce risk from future storms, including natural methods such 
as wetlands, as well as nonstructural measures such as 
elevation, buyout, relocation, and/or flood-proofing of 
buildings and structures and improved flood plain/flood risk 
management. LACPR is working with experts from federal, state 
and local agencies; academia; private industry and even 
international professionals to ensure that the corps includes 
the best ideas for a full range of protection alternatives. The 
corps is also continuing to support and work with the Louisiana 
Coastal Area (LCA) Ecosystem Restoration Program to provide 
wetlands restoration techniques and methods to maintain and 
restore coastal wetlands.

    Senator Boxer. I am going to write them an immediate note 
and just say in many ways, there is a lot of post-traumatic 
stress going on even for people who didn't know people who were 
lost there. In my own case, we have had so much gun violence in 
California. One particular case was at a law firm, where a 
killer came in with an automatic weapon and just mowed 
everybody down, including one of my son's best friends from law 
school. Just looking on the news, so many years later, this is 
a long time ago, I want to say 10 years, maybe more, it just 
brings it back. I could barely watch.
    So this is an area we have just got to do something about, 
but that is the subject of another day and another hearing in 
another place. But thank you for sharing that information.
    Senator Whitehouse, thank you.
    Senator Whitehouse. General, thank you. I don't mean to 
hold you much longer. I know I stand right now between you and 
the exit. I know it has been a long day for you.
    I did want to touch on two things that pertain to Rhode 
Island, now that you are here. One is that in Woonsocket, which 
is a proud city in the northern part of Rhode Island, a very 
strong working class city, there is a levee project around the 
edges of the Blackstone River. Woonsocket is, to put it mildly, 
not a wealthy town. I think the average income in Woonsocket is 
about $16,000 a year. It is very economically depressed. It has 
been hit hard by the trade policies the country has followed 
for many years. Many of the jobs that were there in the past 
have been exported.
    Now, they find that the levees are in substantial 
disrepair. It is going to be very important to us to work with 
you and to work with the Army Corps to see that those repairs 
get made. I know that my senior Senator from Rhode Island, Jack 
Reed, is working very hard, and I am doing what I can to help 
him, to make sure that there is supplemental funding so that we 
can help Woonsocket with its share of the project.
    But it is one of these things where even with the very best 
intentions, you get a city with a long tradition, but a city 
that has suffered some economic distress in the past, and it 
has been hard for them to keep up the maintenance. And now we 
are presented with a situation that could be a real public 
health problem and a public safety problem. We need to get on 
it. I hope that that will have your attention and interest.
    General Van Antwerp. Yes, sir, it will.
    Senator Whitehouse. Very good.
    General Van Antwerp. I am familiar with it, too. I think it 
is an area where you have some of that depressed economy, and 
you have requirements to maintain the levees. That is a 
challenge today, no question, yet the public safety is still at 
stake.
    Senator Whitehouse. So between you and me and Senator Reed 
and the city of Woonsocket, we will work our way through this. 
But I wanted to let you know how significant that was in our 
State.
    The other thing is that we have kind of an odd situation. 
Rhode Island is the Ocean State. A great number of people find 
both recreation and make their livelihoods on Narragansett Bay 
and Mount Hope Bay and the waters of Rhode Island, Block Island 
Sound. The marina business is quite an active one. There have 
been substantial problems with dredging in Narragansett Bay, as 
you may know. We have recently made a lot of progress on 
dredging out the main channel and setting up CAD cells for 
disposal of the dredged spoils.
    At the same time, with the disposal sites opening up, many 
of the marinas have invested substantial resources. These are 
small businesses, family owned businesses, and they have 
invested substantial resources in dredging out what they own 
and what they are licensed to control, which is the marina 
space that they have. But between the main channel and the 
marina space, there is very often such silting that they can't 
get customers in and out from their marinas.
    It is that sort of secondary branch dredging that we need 
to work on and enable that to move forward. I understand that 
over the years, and they don't hesitate to remind me, an 
enormous amount of money has been accounted into a fund for 
this purpose. However, the cash didn't stay there. Like the 
Social Security reserve fund, it is gone. It is just an 
accounting entry, and when you open up the box and look for the 
money, what you see is a note saying, IOU, Uncle Sam.
    So despite the best efforts of the industry to contribute 
over the years, to have this funding there when they need it at 
moments like this, it isn't there. My predecessors in this 
building have spent it on other things, and now we have to cope 
with that project, too.
    But for some of these small businesses, which have invested 
substantial, substantial resources in the hope and promise that 
this would come to pass, we now need to move on to the next 
step there as well. I hope I can have your help with that.
    General Van Antwerp. Yes, sir. I commit to looking into 
that. I think there is an enormous dredging backlog in this 
country. I am aware of that. I would welcome to take a look and 
look into this particular situation.
    Senator Whitehouse. Good. We will follow-up.
    I wish you well.
    General Van Antwerp. Thank you, sir.
    Senator Whitehouse. As the new member and the junior member 
of the Environment and Public Works Committee, I expect we may 
have a long career together. I look forward to working with 
you, and congratulations on your nomination.
    General Van Antwerp. Thank you very much, sir.
    Senator Whitehouse. There may be further comments, so the 
record of this hearing will be left open for 2 weeks.
    The hearing stands adjourned.
    Thank you, General.
    General Van Antwerp. Thank you, Senator.
    [Whereupon, at 3:40 p.m. the committee was adjourned.]
      


</pre></body></html>
